                                                                             DODIG-2014-116



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              SEPTEMBER 17, 2014




                     Assurance Policy Evaluation –
                     Spacecraft and Strategic Systems




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
    I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                         Mission
       Our mission is to provide independent, relevant, and timely oversight
       of the Department of Defense that supports the warfighter; promotes
       accountability, integrity, and efficiency; advises the Secretary of
                  Defense and Congress; and informs the public.



                                          Vision
       Our vision is to be a model oversight organization in the Federal
       Government by leading change, speaking truth, and promoting
       excellence—a diverse organization, working together as one
                professional team, recognized as leaders in our field.




                                     Fraud, Waste & Abuse

                                     HOTLINE
                                     Department of Defense
                                     dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                                           Results in Brief
                                           Assurance Policy Evaluation –
                                           Spacecraft and Strategic Systems



September 17, 2014                                                  Opportunities (cont’d)

Objective                                                           Program  (SSP)
                                                                    practices.   These
                                                                                         that
                                                                                          three
                                                                                                  should   be
                                                                                                    practices
                                                                                                                  considered
                                                                                                                  are    1)  the
                                                                                                                                  DoD     standard
                                                                                                                                    development
Our objective was to evaluate the sufficiency                       of specific policies and standards, which are applied on every
of    Department         of     Defense      (DoD)       mission    program      and   contract,    2)  verifying       program     requirements
assurance policies and procedures used in the                       through in‑depth quality assurance audits of the program and
acquisition of spacecraft and strategic systems.                    contractors; and 3)  using independent organizations that report
                                                                    directly to the agency head to ensure mission success. These

Opportunity for                                                     practices help ensure a specific level of mission success for
                                                                    their programs.
Improvement
Our      evaluation      determined        that
no significant gaps or weaknesses in the DoD
                                                  there     were
                                                                    Recommendations
acquisition       policies     and     procedures      regarding    We recommend that the Deputy Assistant Secretary of Defense
mission assurance. The term “mission assurance”                     for Systems Engineering (DASD(SE)):
refers     to     the   necessary      systems     engineering,
                                                                       •	 Update the Defense Acquisition Guidebook, to recommend
design, quality, safety, reliability, maintainability,
                                                                          that Major Defense Acquisition Programs  (MDAPs) review,
and      availability    requirements.       Department        of
                                                                          tailor, and apply applicable mission assurance concepts and
Defense Instruction  (DoDI) 5000.02 “Operation
                                                                          principles, such as those found in the Mission Assurance
of Defense Acquisition Systems” and the Defense
                                                                          Guide    TOR-2007(8546)‑6018,           when     developing      Systems
Acquisition        Guidebook         generally    support    the
                                                                          Engineering Plans and contract requirements to promote a
mission         assurance     tenets    through       application
                                                                          higher probability of mission success.
of systems engineering practices. However, the
Mission Assurance Guide TOR-2007(8546)‑6018                            •	 Review the best practices of Missile Defense Agency,
provides more detailed guidance for systems                               Air Force Space and Missile Systems Center, and Navy
engineering, quality assurance, and reliability;                          Strategic Systems Program identified within the report
and it should be used by programs in their                                and     incorporate      them    into    the    Defense       Acquisition
acquisition process.                                                      Guidebook.      Present      these      practices    at       the   next
                                                                          DASD(SE) bi‑monthly systems engineering best practice
We        found         three          common          program            meeting to ensure dissemination.
management          practices     across     Missile     Defense
Agency  (MDA), the Space and Missile Systems
Center      (SMC),       and     the      Strategic      Systems




Visit us at www.dodig.mil


                                                                                                DODIG-2014-116(Project No. D2013-DT0TAD-0002) │ i
                                      Results in Brief
                                      Assurance Policy Evaluation –
                                      Spacecraft and Strategic Systems




  Management Comments                                            DoD IG Response
  The Director of Acquisition Resources and Analysis concurred   We concur with the response. We request to be informed
  with the recommendation. DASD(SE) will update the Defense      when the Defense Acquisition Guidebook Chapter 4 is
  Acquisition Guidebook Chapter 4 by 2015 to implement the       updated and when MDA, SMC and SSP are scheduled to
  DOD IG recommendations and will invite the MDA, SMC            present at the Systems Engineering Forum.
  and SSP to present their best practices at a System
  Engineering Forum in 2015.




ii │ DODIG-2014-116(Project No. D2013-DT0TAD-0002)
                                       INSPECTOR GENERAL
                                       DEPARTMENT OF DEFENSE
                                       4800 MARK CENTER DRIVE
                                    ALEXANDRIA, VIRGINIA 22350-1500


                                                                                    September 17, 2014

MEMORANDUM FOR PRINCIPAL DEPUTY ASSISTANT SECRETARY OF DEFENSE
                 FOR RESEARCH AND ENGINEERING

SUBJECT:	 Assurance Policy Evaluation — Spacecraft and Strategic Systems
          (Report No. DoDIG-2014-116)

We are providing this report for information and use. The subject evaluation was performed to
evaluate the sufficiency of the Department of Defense (DoD) mission assurance policies and
procedure used in the acquisition of spacecraft and strategic systems. Mission assurance is the use
of industry best practices in systems engineering, design, manufacturing, testing, quality assurance,
risk management, reliability, maintainability, and availability requirements to support overall
mission success.

Our evaluation determined that there were no significant mission assurance gaps or weaknesses
in the DoD acquisition policies and procedures. However, we determined that the Mission
Assurance Guide TOR-2007(8546)-6018 provides more detailed guidance for system engineering,
quality assurance, and reliability and should be used by programs in their acquisition process.
Additionally, we found three common program management practices used by spacecraft and
strategic systems programs that promote mission success. Those practices are: 1) The development
of organizational mission assurance policies and standards, which are applied on every acquisition
program and contract, 2) Verifying program requirements through in-depth quality management
system audits of the program and contractors; and 3) The use of independent organizations reporting
directly to the agency head to ensure mission success.

We recommend that the Defense Acquisition Guidebook be updated with the concepts and
principles found in the Mission Assurance Guide TOR-2007(8546)-6018 so that Major Defense
Acquisition Programs can incorporate best practices in their acquisition documents.

The Deputy Assistant Secretary of Defense for System Engineering concurred with the findings
and recommendation in this report. They stated the Deputy Assistant Secretary of Defense for
System Engineering will update the Defense Acquisition Guidebook by 2015 and will include
references to standards such as the systems engineering standard IEEE 15288.1, the technical
reviews   and   audits   standard    IEEE   15288.2,   and   the   configuration   management   standard




                                                                                                  DODIG-2014-116│ iii
           SAE EIA-649-1, once the standards are published. Also, the Deputy Assistant Secretary of Defense
           for System Engineering will invite the Missile Defense Agency, the Space and Missile Systems
           Center, and the Strategic Systems Program to present their best practices at a Systems Engineering
           Forum in 2015.

           We appreciate the courtesies extended to the staff. Please direct questions to Captain Christopher Failla
           at (703) 604-8915 (DSN 664-8915), Christopher.Failla@dodig.mil. If you desire, we will provide a
           formal briefing on the results.




           	                                                   Randolph R. Stone
           	                                                   Deputy Inspector General
           	                                                   Policy and Oversight


           cc:
           Under Secretary of Defense for Acquisition, Technology and Logistics
           Deputy Assistant Secretary of Defense, System Engineering
           Director, Missile Defense Agency
           Commander, Space and Naval Warfare System Command
           Commander, Space and Missile Systems Center
           Director, Navy Strategic Systems Program




iv │ DODIG-2014-116
Contents
Introduction
Objective _________________________________________________________________________________________1
Background ______________________________________________________________________________________1
Evaluation Methodology and Criteria__________________________________________________________1

Opportunities for Improvement
Opportunity A. Mission Assurance Guide
Provides Detailed Guidance__________________________________________________7
Recommendation, Management Comments, and Our Response_____________________________8

Opportunity B. Common Program
Management Practices___________________________________________________________9
Recommendation, Management Comments, and Our Response___________________________ 10

Appendixes
Appendix A. Scope and Methodology________________________________________________________ 12
Appendix B. Service and Agency Reports____________________________________________________ 13
    Missile Defense Agency___________________________________________________________________ 13
    Air Force – Space and Missile System Center____________________________________________ 19
    Navy – Strategic Systems Programs______________________________________________________ 23

Management Comments
Principal Deputy for the Assistant Secretary of Defense
    for Research & Engineering_______________________________________________________________ 30

Acronyms and Abbreviations______________________________________________ 32




                                                                                                       DODIG-2014-116│ v
                                                                                                                                 Introduction




Introduction
Objective
Our objective was to evaluate the sufficiency of Department of Defense (DoD)
mission assurance policies and procedures used in the acquisition of spacecraft
and strategic systems.


Background
The DoD space industry uses the term “mission assurance”, which is defined by
the Mission Assurance Guide TOR-2007(8546)‑6018 (MAG),1 used by several
strategic space programs, as the “disciplined application of general systems
engineering, quality, and management principles towards the goal of achieving
mission success.” DoD does not use the term “mission assurance” and focuses
on an overall systems engineering approach.  We initiated this evaluation to
determine whether gaps exist in the overarching DoD policy related to systems
engineering, manufacturing, testing, quality assurance, risk management, reliability,
maintainability,           and      availability        requirements           leading       to     mission        success.


Evaluation Methodology and Criteria
Methodology
The evaluation was limited to evaluating overarching DoD policy, and evaluating
the approach taken by several agencies to ensure mission success with mission
assurance principles.  This evaluation was limited to DoD agencies that procure
complex weapon systems that must survive the harsh environments of space, such
as satellites and strategic missile systems. The selected agencies were:

              •	 Missile       Defense        Agency         (MDA),        which       is    responsible         for     the
                  development and operation of the DoD Ballistic Missile Defense System;

              •	 Air Force Space and Missile Systems Center (SMC), which is responsible
                  for space programs; and

              •	 Navy Strategic Systems Program (SSP), which is responsible for the
                  nuclear ballistic missile program.

	1	
      The Mission Assurance Guide TOR-2007(8546)-6081 was produced for U.S. Government by the Aerospace Corporation.
      The primary purpose of the MAG is to provide practical guidance to personnel of the Aerospace Corporation and, in
      general, National Security Space (NSS) program Office personnel, who are responsible for executing mission assurance
      functions that are key to achieving program and mission success.




                                                                                                                               DODIG-2014-116│ 1
Introduction



                 We began our evaluation in March of 2013 by evaluating DoD documents
                 including DoD Instruction  (DoDI) 5000.02 “Operation of Defense Acquisition
                 Systems”, the Defense Acquisition Guidebook (DAG) May  15,  2013, and the
                 Systems Engineering Plan (SEP) outline. The team used the 2008 version of
                 DoDI  5000.02 for this evaluation.  In November  2013 an interim version of
                 DoDI  5000.02 was released, stating that the Under Secretary of Defense for
                 Acquisition, Technology, and Logistics  (USD(AT&L)), with support from the
                 Department of Defense Chief Information Officer and the Director, of Operational
                 Test and Evaluation were to revise DoDI 5000.02. Thus, we did not use the
                 interim version as it was undergoing revision at the time of this evaluation.
                 However, we did evaluate the interim document and provided comment through
                 the formal DoD issuance process.  We compared these documents to the MAG
                 to determine if they contained the tenets of a mission assurance program
                 described in the MAG.  The SEP outline for space programs specifically calls
                 out the MAG, and thus was used as our mission assurance criteria.  We also
                 met with Office of the Deputy Assistant Secretary of Defense for Systems
                 Engineering  (ODASD(SE)) personnel to evaluate their role in implementing
                 DoD policy and how they use systems engineering to ensure mission assurance
                 across DoD.

                 We then evaluated the selected agencies, focusing on the processes and
                 procedures related to design, manufacturing, and quality assurance that support
                 the implementation of the mission assurance. At each agency, we evaluated
                 its documentation to include internal policies, procedures, and standards to
                 understand and evaluate its approach to mission assurance.  We conducted
                 interviews with agency system engineers, mission assurance department directors,
                 and system and quality engineers to determine how mission assurance practices
                 were implemented.  We then analyzed the documentation and information
                 provided by engineering personnel to identify best practices.  The detailed
                 evaluation of each agency is in Appendix  B along with supporting analysis, defining
                 commonalities, and best practices.


                 DoD Policies Related to Mission Assurance
                 The team      compared three acquisition documents; (1)  DoDI  5000.02, the
                 overarching acquisition document; (2)  the DoD guidance for developing a SEP,
                 which is a deliverable of DoDI  5000.02; and (3)  the DAG, a supporting guidebook
                 against the MAG to determine how mission assurance principles are incorporated
                 into the acquisition process.  The DoDI  5000.02 governs the DoD acquisition




2 │ DODIG-2014-116
                                                                                                          Introduction



process and establishes the framework for translating capability needs and
technology    into   weapon     system         acquisition    programs    that     meet    statutory
requirements.  DoDI  5000.02 requires program managers develop a SEP, which
outlines how the program will meet its engineering requirements. The SEP format
states that programs operating under space system acquisition procedures describe
how their mission assurance processes meet the best practices described in the
MAG.  DoDI  5000.02 also refers program managers to the DAG, which provides
program managers best practices that can be applied throughout the acquisition
process to help satisfy its requirements.  The MAG is a collection of industry
design, manufacturing, quality, and safety best practices whereas the DAG is a
collection of acquisition life cycle best practices.


DoDI 5000.02 Operations of Defense Acquisition
DoDI  5000.02 is written by the Under Secretary of Defense for Acquisition,
Technology, and Logistics  (USD(AT&L)), with support from the Department
of Defense Chief Information Officer and the Director, of Operational Test
and Evaluation to identify the program management functions and processes
necessary to acquire any system or weapon system.  It has gone through several
iterations to reflect priorities and evolving acquisition policies.  For example, early
versions emphasized reviews, quality control, and design-to-cost.  In 1996, the
DoDI  5000.02 was revised to meet the 1994  Federal Acquisition Streamlining
Act  (FASA), which encouraged the simplification of Government procedures to
procure items. The 1996 version separated mandatory policies and procedures
from   discretionary     practices     supporting      the     implementation      of     acquisition
policy; these policies and procedures were placed in DoD Regulation  5000.2‑R
“Mandatory Procedures for Major Defense Acquisition Programs  (MDAPs) and
Major Automated Information System  (MAIS)” and Defense Acquisition Deskbook
respectively.  The 1996 revision stated that by reducing mandatory guidance,
program managers were free to exercise their own judgment while managing
an acquisition program.  The revised DoDI reduced the burden of mandatory
procedures    and    specifications,     encouraged          prudent   risk   management,        and
allowed the integration of commercial products and best practices. This resulted
in the acquisition process focusing on mission oriented program management
and performance based contracting. In 2000, the DoDI  5000.02 canceled and
replaced DoD 5000.2‑R.

The    DoDI    5000.02    (2008)       lists    applicable     laws,   policies,   and     reference
documents related to the various phases of the acquisition process. Its purpose
is to establish policy for the management of all acquisition programs and the


                                                                                                        DODIG-2014-116│ 3
Introduction



                 acquisition process itself. It does not provide technical program or system
                 requirements.  However, DoDI 5000.02 does include a systems engineering
                 enclosure that describes the policies and procedures regarding the application of
                 systems engineering to the acquisition process.  The systems engineering section
                 briefly outlines areas such as risk management, technical reviews, manufacturing
                 and producibilty, and reliability and maintainability, which a program manager
                 must discuss within the SEP.


                 Systems Engineering Plan Outline
                 DoDI  5000.02 requires program managers to develop a SEP showing how they
                 will meet systems engineering requirements. The SEP is used to describe the
                 programs overall technical approach to risk management, program processes,
                 resources, organization, metrics, design considerations and the criteria for
                 technical reviews.  ODASD(SE) located within the Office of the Assistant Secretary of
                 Defense for Research and Engineering is responsible for reviewing and approving
                 all MDAPs and MAIS SEPs.  On April  20,  2011, the Principal Deputy Under
                 Secretary of Defense Acquisition Technology, and Logistics issued a memorandum,
                 "Document Streamlining – Program Strategies and Systems Engineering Plan,"
                 directing programs to develop Systems Engineering Plans using the approved SEP
                 outline to ensure proper documentation of required information. The SEP outline
                 facilitates uniformity of program data submitted to DASD(SE) for evaluation and
                 approval. It also ensures programs are submitting all required data to comply
                 with section 139b title 10 United  States Code  (10 U.S.C. §139b) and DoDI  5000.02.

                 The SEP outline is composed of four sections: Introduction; Technical Requirements;
                 Engineering Resources and Management; and Technical Activities and Products.
                 The Technical Requirements section identifies the system architecture and required
                 certification, such as airworthiness.  The Engineering Resources Management section
                 focuses on schedule, tasks, personnel roles and responsibilities, internal processes
                 such as risk management, and the overall organizational structure of the program.
                 The Technical Activities and Products section outlines the systems engineering
                 activities of the program and how top‑level performance requirements (how fast,
                 how far, how big) are incorporated into the configuration.  It also identifies the
                 technical review entrance and exit requirements for all major reviews, such as
                 milestone decisions, preliminary design reviews  (PDR), and critical design
                 reviews  (CDR).  In addition, the section requires the program managers to identify
                 how    affordability;   corrosion;   environmental,    safety    and    occupational
                 health  (ESOH); Human System Integration  (HSI); Item Unique Identification  (IUID);




4 │ DODIG-2014-116
                                                                                              Introduction



manufacturing, system architecture; program protection; and reliability and
maintainability are identified and incorporated in the contract.  However, if the
program is space based the program manager would follow Table 4.6‑1 Design
Considerations footnote 3 in the SEP outline, for reliability and maintainability.
The footnote states,

           “Programs operating under Space Systems Acquisition
           Procedures shall address Mission Assurance (MA) planning
           in the context of reliability and provide a description of
           MA activities undertaken to ensure that the system will
           operate properly once launched into orbit.  Specifically,
           space programs will describe how the Mission Assurance
           process employed meets the best practices described in the
           Mission Assurance Guide (reference Aerospace Corporation
           TOR‑2007(8547)-6018).  This description should include
           program phase-dependent processes and planning for MA
           in the next phase of the program and the way program
           MA processes adhere to applicable policies and guidance.
           Also describe the launch and operations readiness process.”

The SEP demonstrates how systems engineering principles are being translated
into the program’s acquisition process, thus, the SEP is the criteria on which the
technical aspects such as manufacturing, reliability and maintainability are judged.
DASD(SE) must review and approve the SEP before the program proceeds. Finally,
DASD(SE) uses the SEP during program reviews to ensure the programs are on
track and engineering risks are being properly identified and mitigated.


Defense Acquisition Guidebook
The DAG, formerly the Defense Acquisition Deskbook, is designed to help a
program manager meet the requirements outlined in DoDI 5000.02.  The DAG
is not a requirements document and should not be used as such.  It contains
non‑mandatory expectations for satisfying the requirements of DoDI 5000.02.
The DAG complements DoDI 5000.02 by providing discretionary best practices
that can be tailored to program needs.  The program managers use the DAG as
a reference to support their decisions as well as help them understand the
overall acquisition process.

The   Defense    Acquisition   University   provides   the   DAG   to   the   acquisition
community as an interactive website with 14 chapters that align to DoDI 5000.02
requirements. Each chapter lists potential ways the program manager can satisfy




                                                                                            DODIG-2014-116│ 5
Introduction



                 process and requirements.  The DAG does not contain a specific chapter or
                 section dedicated to mission assurance; however, it mentions the principles
                 throughout the document specifically within Chapter 4, “Systems Engineering.” At
                 the time of this report, the DAG was not updated to align with the current
                 2013 revision of DoDI 5000.02.


                 Mission Assurance Guide TOR-2007(8546)-6018
                 The MAG is an industry document, primarily used by the DoD space community that
                 identifies the tenets of mission assurance. The MAG defines mission assurance as
                 the disciplined application of proven scientific, engineering, quality, and program
                 management principles towards the goal of achieving mission success, follows a
                 general systems engineering framework, uses risk management, and independent
                 assessment throughout the process.  The Aerospace Corporation in concert with
                 National Security Space (NSS) community and Government sponsors developed
                 the MAG to:

                           •	 decrease the number of system integration anomalies and failures;

                           •	 prevent the weakening of systems engineering and mission assurance
                                practices;

                           •	 reestablish high levels of mission success for the NSS activities; and

                           •	 re-invigorate and apply the principles and best practices of mission
                                assurance in a formal and disciplined manner throughout the space
                                acquisition process.

                 The MAG’s primary purpose is to provide practical guidance for executing mission
                 assurance functions that are key in achieving program and mission success.

                 The MAG describes the overarching mission assurance framework, processes,
                 disciplines, tasks, best practices, standards, and procedures applicable to NSS
                 programs to ensure mission success.  The document first identifies the mission
                 assurance guiding principles. It explains how to tailor the document to suit the
                 program’s needs and discusses mission assurance implementation and evaluation
                 methods. Finally, the document describes in detail the tenets of mission assurance,
                 which include program assurance, requirements developments, design assurance,
                 manufacturing, integration, operations, reviews and audits, risk management,
                 reliability,    configuration,   parts   and   material,   quality,   safety,   software,   and
                 information assurance.




6 │ DODIG-2014-116
                                                                     Opportunity for Improvement A




Opportunity for Improvement A
Mission Assurance Guide Provides Detailed Guidance
We determined there were no significant gaps or weaknesses in the DoD
acquisition policies and procedures regarding mission assurance.  DoDI 5000.02
and the DAG generally support the mission assurance tenets through application
of systems engineering practices.  However, the Mission Assurance Guide provides
more detailed guidance for systems engineering, quality assurance, and reliability
considerations supporting system acquisition.



DAG to MAG
The DAG is designed to improve a program manager’s understanding of the
acquisition process and the statutory and regulatory requirements associated with
the process and guide them in meeting the requirements of DoDI  5000.02 using
best practices.  Conversely, the MAG provides details on how to ensure mission
success from a product and engineering standpoint and contains activities specific
to space systems. Therefore, when the DAG is compared to the MAG, there are
differences in the level of detail required for space based design assurance;
manufacturing assurance; integration, test, and evaluation; operations readiness
assurance; reviews and audits; risk management; and reliability engineering.

The DAG discusses several mission assurance principles, in relation to the
acquisition process, but does not offer the same depth of information as the MAG.
The MAG is more specific in the areas of reviews and audits, quality, and reliability.
Overall, the DAG focuses on acquisition programmatics such as cost and schedule,
while the MAG focuses on the technical engineering aspects of the program.

The DAG addresses quality throughout the document as it relates to the
acquisition process, it does not contain a dedicated section to address product
quality assurance. However, the DAG does identify AS9100 “Quality Management
Systems – Requirements for Aviation, Space and Defense Organizations” and
ISO  9001:2008     “Quality   Management        Systems – Requirements”   as   quality
requirements to be considered on any contract. In comparison, the MAG dedicates
a chapter to quality assurance, which goes beyond stating quality requirements
considerations.  The MAG also defines quality assurance and clearly outlines
the objectives and activities of both the contractor and program office for
implementing a quality assurance program.




                                                                                         DODIG-2014-116│ 7
Opportunity for Improvement A



                 The DAG, Chapter 4, “Systems Engineering,” discusses reliability in relation to
                 the acquisition process, but not in detail. The DAG outlines considerations for
                 the contract and statement of work, lists tools to calculate reliability and directs
                 program managers to additional reliability resources. In comparison, the MAG
                 dedicates a chapter to reliability.  The MAG defines reliability, identifies the
                 key practices, and describes the core reliability activities. The MAG also covers
                 worst‑case and parts stress analysis.  The MAG also discusses critical and limited
                 life item control, parts reliability analysis and environmental stress screening.


                 Recommendation, Management Comments, and
                 Our Response
                 Recommendation A
                 We recommend DASD(SE) update the DAG to recommend that MDAPs review, tailor,
                 and apply applicable mission assurance concepts and principles, such as those
                 found in the MAG, when developing SEPs and contract requirements to promote
                 a higher probability of mission success.


                 Principal Deputy for the Assistant Secretary of Defense
                 for Research & Engineering Comments
                 The   Director   of   Acquisition   Resources   and   Analysis   concurred   with   the
                 recommendation. DASD(SE) will update DAG Chapter 4 to implement the DoD IG
                 recommendations by 2015.


                 DoD IG Response
                 The DoD IG found the comments responsive, and requests to be notified when the
                 DAG Chapter 4 is updated and released.




8 │ DODIG-2014-116
                                                                    Opportunity for Improvement B




Opportunity for Improvement B
Common Program Management Practices
We found three common program management practices across MDA, SMC, and
SSP that should be considered DoD standard practices. These three practices are
1)  the development of specific policies and standards, which are applied on
every program and contract, 2)  verification of the program requirements through
in‑depth quality assurance audits of the program and contractors, and 3)  the use of
independent organizations reporting directly to the agency heads to ensure mission
success. These practices help the program ensure they are maintaining a specific
level of mission success for all their space programs.



Specific Policies and Standards
MDA, SMC, and SSP all developed their own specific policies and standards, which
are required on each program to ensure quality and mission success. For example,
MDA uses the MDA Assurance Provision  (MAP) and Parts, Materials, and Processes
Mission Assurance Plan  (PMAP); SMC uses a list of 69  standards; and SSP uses
the Technical Program Management Requirements for Strategic System Programs
Acquisitions Document  (T9001B), which identifies the contract requirements
that help ensure the desired level of reliability and mission success. Each of these
documents identifies the specific Government or industry standards that will
become executable requirements for the contractor.  These standards and policies
cover areas such as systems engineering, including design and integration of
systems, quality assurance and technical reviews and assessments. The application
of uniform standards allows the program to maintain desired levels of mission
success and provide a baseline to audit or evaluate the program to determine its
overall probability of mission success.


Technical Assessments
MDA, SMC and SSP all conduct in-depth independent technical and quality
assessments of their programs.  Each component performs verification of its
program requirements by conducting technical and quality assurance assessments
of its contractors.  For example, MDA has an audit program consisting of
three types of audits that evaluate field activities, contractors, and suppliers;
SMC employs technical reviews and audits throughout the program lifecycle as
milestone decision points; and SSP has five main technical and quality reviews




                                                                                       DODIG-2014-116│ 9
Opportunity for Improvement B



                 that evaluate contractors, field activities and program offices.  The assessments
                 conducted by each of these components focus on the program’s adherence to
                 internal mission assurance policies and or the contractor’s adherence to mission
                 assurance, quality, and reliability standards as well as the contractor’s own internal
                 policies and procedures. These assessments include an in-depth assessment of the
                 products, management, design, inspection, manufacturing and test processes. These
                 assessment help the components identify potential program contractor or supplier
                 practices that may impact mission success and verify contractual requirements are
                 being met.


                 Independent Organizations
                 MDA, SMC and SSP all use an independent organization, reporting directly to
                 leadership, to ensure mission success. For example, MDA’s independent organization
                 is Quality, Safety, and Mission Assurance  (MDA/QS) which is responsible for the
                 agency’s mission assurance strategy; SMC’s independent organization is the
                 Engineering Directorate  (SMC/EN) which is responsible for the independent
                 assessment and analysis of programs; and SSP’s independent organization is the
                 Office of the Chief Engineer  (SP201), under the Technical Division  (SP20), which
                 is responsible for ensuring that technical disciplines such as quality, reliability,
                 maintainability and product assurance are included in program activities. These
                 independent organizations have direct reporting lines to the agency’s director.
                 In each case, the independent organization must approve the tailoring of the
                 baseline policies and requirements by the program office for inclusion on the
                 contract. Additionally these organizations ensure compliance with the standards
                 and policies through audits and direct engineering support to the program office.
                 These organizations also participate in design reviews, material review boards,
                 and tests providing independent risk assessments to the program manager and
                 component heads.


                 Recommendation, Management Comments, and
                 Our Response
                 Recommendation B
                 We recommend DASD(SE) incorporate into the Defense Acquisition Guidebook
                 the best practices of MDA, SMC and SSP that were identified and highlighted within
                 the report. Present these practices at the next DASD(SE) bi-monthly systems
                 engineering best practice meeting, to ensure dissemination of these best practices.




10 │ DODIG-2014-116
                                                                                      Appendixes



Principal Deputy for the Assistant Secretary of Defense
for Research & Engineering Comments
The Director of Acquisition Resources and Analysis concurred with our
recommendation stating the principles of DAG Chapter 4 are consistent with the
DoD IG’s recommendation. They also stated the DAG will be updated as new
practices emerge and will include references to standards such as the systems
engineering standard IEEE 15288.1, the technical reviews and audits standard
IEEE 15288.2, and the configuration management standard SAE EIA-649-1 once the
standards are published and adopted by the DoD. Also, DASD(SE) will invite MDA,
SMC, and SSP to present their best practices at a Systems Engineering Forum
in 2015.


DoD IG Response
The DoD IG found the comments responsive. We requests to be notified when the cited
standards are released and when MDA, SMC and SSP are scheduled to present at the
Systems Engineering Forum.




                                                                                  DODIG-2014-116│ 11
Appendixes




                 Appendix A
                 Scope and Methodology
                 We conducted this technical evaluation from March  2013 through June  2014 in
                 accordance with the Council of the Inspectors General on Integrity and Efficiency,
                 “Quality Standards for Inspection and Evaluation,” January  2012. We planned
                 and performed the evaluation to obtain sufficient and appropriate evidence to
                 provide a reasonable basis for our observations and conclusions, based on our
                 evaluation objectives

                 We evaluated DoD documents including DoD Instruction  (DoDI)  5000.02 “Operation
                 of Defense Acquisition Systems” December 8, 2008, the Defense Acquisition
                 Guidebook  (DAG) May  15,  2013, and the Systems Engineering Plan  (SEP) outline.
                 We then compared these documents to the MAG to determine if they contain
                 the tenets of a mission assurance program as described by the MAG. We met
                 with the personnel from the Office of the Deputy Assistant Secretary of Defense
                 for Systems Engineering  (ODASD(SE)) to evaluate their role in implementing
                 DoD policy and how they use systems engineering to ensure mission assurance
                 across DoD.

                 We then evaluated the Missile Defense Agency (MDA), Air Force Space and Missile
                 Systems Center (SMC), and Navy Strategic Systems Program (SSP). At each agency,
                 we evaluated its documentation to include internal policies, procedures, and
                 standards to understand and evaluate its approach to mission assurance.  We
                 conducted interviews of agency directors and system and quality engineers to
                 determine how mission assurance practices were implemented. We then analyzed
                 the documentation and information provided by engineering personnel to identify
                 best practices.


                 Use of Computer-Processed Data
                 We did not use computer-processed data to perform this audit.




12 │ DODIG-2014-116
                                                                                             Appendixes




Appendix B
Service and Agency Reports
Missile Defense Agency
Background
The Missile Defense Agency, formerly known as The Strategic Defense Initiative
Organization (SDIO), was established during the Reagan presidency in 1983
to develop non-nuclear missile defenses.  In 1999 in accordance with Public
Law  106‑38, “The National Missile Defense Act,” SDIO’s mission was to develop
and deploy an effective National Missile Defense System capable of defending the
United States against limited ballistic missile attack.  The mission was updated
under President George W. Bush to develop an integrated, layered defense that
would be capable of attacking warheads and missiles in all phases of their
flight. This is what is known today as Ballistic Missile Defense System (BMDS).
The BMDS is comprised of multiple interoperable subsystems with a mission
to intercept ballistic missile threats in all phases of flight as seen in Figure B-1.
MDA manages and develops the BMDS with an average budget of about 8 billion
dollars based on fiscal data from FY  2011 through FY  2014. To date, MDA’s test
program has had 97 out of 111 successful flight tests across their multiple systems.

Figure B-1: Ballistic Missile Defense System




Approved for Public Release	                                        ncr-114600/0022113
14-MDA-7121 (3 Jan 13)
Source: Missile Defense Agency


                                                                                         DODIG-2014-116│ 13
Appendixes



                 The organizational structure of MDA includes functional managers, program
                 managers, knowledge center managers, and two national teams (Figure B-2).
                 The functional managers are comprised of deputies for operations, engineering,
                 acquisition management, advanced technology, test/integration and fielding, and
                 international affairs. Program Managers focus on executing each BMDS element.

                 Figure B-2. MDA Organizational Chart




                 Source: Missile Defense Agency


                 Mission Assurance Approach
                 MDA’s organizational structure designates a Quality, Safety, and Mission Assurance
                 directorate (QS), which is responsible for carrying out the agency’s mission
                 assurance strategy (Figure B-2). QS is a standalone organization and reports
                 directly to the MDA Director on matters relating to Quality, Safety, and Mission
                 Assurance (QSMA). According to the QS Concept of Operations, “QS functions as
                 an independent, unfettered and unrestricted, non-advocate technical organization
                 for MDA with a specific focus on mission success and personnel safety.”2




                 	2	
                       QS-SOP-01, “Quality, Safety, and Mission Assurance Directorate Concept of Operations, May 9, 2013, Page 4




14 │ DODIG-2014-116
                                                                                     Appendixes



QS executes this function through seven groups, which are BMDS Assurance
Integration (QSI), BMDS Safety (QSS), BMDS Safety Officers (QSC), Safety and
Occupational Health (QSH), Mission Assurance (QSA), BMDS Quality (QSQ), and
Parts, Materials, and Processes (QSP) as seen in the QS organizational chart
(Figure  B-3). Although there is a specific mission assurance group within QS, all
of the groups perform some mission assurance activities outlined in the MAG and
MDA Assurance Provissions (MAP).

Figure B-3. Quality, Safety, and Mission Assurance (QS) Directorate




Source: Missile Defense Agency


The main functional groups that support mission assurance are QSQ, QSA, QSP,
QSI and QS program support personnel.

QSQ ensures that the quality assurance requirements are enforced and incorporated
into MDA contracts by incentivizing suppliers to provide quality products.
QSQ also maintains the supplier road maps (SRM), which documents each
program’s supplier down to the fourth tier. In addition, they support MDA test
programs by reviewing and providing input to test event certification plans,
certification data plans, and verifies test configurations.




                                                                                 DODIG-2014-116│ 15
Appendixes



                 QSA ensures that the mission assurance requirements in the MAP are enforced.
                 They do this through participation in design reviews, design certification reviews,
                 manufacturing readiness assessments, manufacturing process analysis, pedigree
                 reviews, and flight and ground tests participation. They also work with program
                 personnel to help prepare and identify program risks and mitigation plans.

                 QSP ensures use of authentic, quality, and reliable parts and materials.  QSP
                 maintains and enforces the MDA Parts, Materials, and Processes Mission Assurance
                 Plan  (PMAP), which defines Parts, Materials, and Processes  (PMP) requirements
                 for all new or modified safety and mission critical products and systems developed
                 for MDA. In addition, they maintain and enforce the MDA policy on purchasing
                 electronic parts to address counterfeiting. Lastly, QSP is leading a team to develop
                 an MDA corrosion prevention program.

                 QSI consists of personnel, known as MDA Assurance Representatives  (MARs),
                 who are permanently located at MDA contractor facilities that produce/integrate
                 MDA critical assets. MARs are also located at Vandenberg Air Force Base and
                 Ft. Greely Alaska launch sites. QSI currently has 26  MARs that are stationed at
                 20  locations across the U.S. overseeing the day-to-day operations. In addition to
                 covering their primary facilities, MARs also evaluate other suppliers within the MDA
                 supply chain. Their boots‑on‑the‑ground presence allows for continuous process
                 improvement, implementation of industry best practices, technical oversight of
                 the supply chain, and formalized facility assessments.  Facility assessments cover
                 electrical,   electronic,   electromechanical  (EEE)   parts,   software,   design   and
                 workmanship, work instructions, manufacturing and tooling, cleanrooms, electrostatic
                 discharge, foreign object debris , safety, training, and operator certification, critical
                 lifts and moves, Material Review Boards, configuration management processes
                 and metrology MARs produce reports highlighting hardware/software risks and
                 facility areas for improvement. QSI personnel work with local Defense Contract
                 Management Agency representatives to create surveillance requirements and ensure
                 quality products are produced by the supplier per contract requirements. Lastly,
                 QSI personnel lead and participate in formal quality and mission assurance
                 audits throughout the supply chain.




16 │ DODIG-2014-116
                                                                                          Appendixes



There are 167  QS personnel embedded in MDA program offices to ensure
that QSMA requirements are met.  They work as program personnel to ensure
requirements are included in contracts awarded to MDA suppliers and that award
fee criteria incorporate QSMA  provisions.  In terms of program execution, QS
program personnel are responsible for contract requirements reviews, design
reviews, ground and flight tests, manufacturing readiness review, first article
inspections, hardware acceptance reviews, pedigree reviews, and failure review
boards/failure investigations.


Observation 1
MDA has two main documents, which identify the standards, requirements, and
engineering principles that are applied to each program, acquisition, and contract.
This ensures that MDA programs and contracts execute to the same baseline
mission assurance standards and meet a minimum level of quality.

The two main documents, the MAP and the PMAP, are supported by additional
internal standards, policies, and processes.  Flow down of mission assurance
standards, requirements, and principles are ensured through contract incentives.

MDA Assurance Provisions (MAP)
QS developed the MAP, which establishes quality, safety, and mission assurance
processes and disciplines required throughout the acquisition process for each
program contract. They developed the MAP by taking standards and requirements
applicable to the mission of the agency from industry best practice such as
ANSI/EIA‑632‑1998     Process    for   Engineering   a   System   and   IEEE   Standard
1012‑1998 Software Verification and Validation. MAP also aligns with the MAG
in several areas including technical and mission assurance reviews. Furthermore,
it provides MDA with methods to measure, verify, and validate mission success
through the collection of metrics, risk assessment, technical evaluations, and
independent assessments and reviews.

MDA deputates are responsible for developing BMDS subsystems such as
Terminal High Altitude Air Defense and Ground-Based Midcourse Defense are
required to develop a Mission Assurance Implementation Plan (MAIP) to describe
how the MAP is implemented on their programs. MDA contracts incorporate
QSMA requirements to promote flow down of requirements and best practices
from prime contractors down to the lower-tier subcontractors. For example, the
Ground Based Missile Defense Development and Sustainment Contract include




                                                                                      DODIG-2014-116│ 17
Appendixes



                 criteria and metrics for non-conformances, unverified failures, quality escapes,
                 sibling risks, repeat nonconformance, first pass yield, and cost of rework, repair,
                 scrap or use as is.

                 Parts, Materials and Processes Mission Assurance Plan (PMAP)
                 QS established the PMAP, which identifies requirements for selection, approval,
                 and overall management of PMP used in MDA products and systems. This plan
                 documents a coordinated approach needed to maintain the highest quality,
                 reliability, and availability of MDA products and systems by using part review
                 boards at the program and agency level. The PMAP is implemented in all MDA
                 mission and safety-critical hardware contracts. The PMAP requires suppliers to
                 purchase parts from authorized sources, or perform appropriate testing of parts
                 from unauthorized sources to mitigate the potential risks that counterfeit parts
                 may infiltrate the BMDS.

                 Similar to the MAP, all MDA programs are required to develop a program‑level
                 PMP plan, which identifies the level of PMAP compliance that their contractors are
                 required to meet. PMP activities within each program are coordinated with their
                 respective PMP Control Board (PMPCB). There is an agency level PMP board
                 that handles system-level PMP activities and issues. QS staffs a PMP Advisory
                 Group  (PMAG), which is a part of the PMPB and supports each Program PMPCB
                 as required.


                 Observation 2
                 MDA employs and incorporates several types of independent mission assurance
                 and quality reviews throughout the product lifecycle.  These reviews help ensure
                 that   mission   assurance   policies,   standards,   and   contract   requirements   are
                 being implemented.

                 The MDA Director delegated authority to QS to institute an audit program to
                 validate if hardware and software products are acceptable. The program validates
                 products against engineering design requirements, compares qualification and
                 acceptance test methods against MDA and industry standards, validates end‑item
                 flight readiness, and examines supplier QSMA practices and procedures. The MDA
                 Audit Program consists of Mission Assurance Audits, Mission Focused Audits,
                 and Facility Checklist Assessments.  Procedures for each of these assessments are
                 documented in the MDA QSMA Audit Program Standard Operating Procedure.




18 │ DODIG-2014-116
                                                                                               Appendixes



QS functional and program personnel conduct audits and assessments at MDA
supplier facilities.  These audits are internally scheduled in advance but are
considered “no‑knock” audits to the supplier or contractor.  According to QS,
“no‑knock” audits provide an opportunity for accurate assessments and insight into
a supplier’s actual operating environment. Once onsite, the audit team evaluates
the supplier’s adherence to existing contract requirements, internal procedures,
and MDA and/or industry best practices.  These audits and assessments also
determine the effectiveness of the QSMA strategies and processes of MDA suppliers.

MDA’s audit program has uncovered several significant findings. For example, an
MDA contractor purchased EEE parts for a rocket motor controller from an
unauthorized supplier, increasing the risk that counterfeit parts were used. The
purchased EEE parts were not subjected to standard authenticity testing at time
of purchase. As a result of this finding, the contractor took corrective actions to
prevent further occurrences of counterfeit parts.


Conclusion
MDA accomplishes its mission assurance strategy by designating QS as an
independent technical organization with a focus on quality and mission success.
QS performs technical assessments, provides recommendations for risk mitigation
and acceptance, and provides mission readiness statements at critical readiness
reviews, and facilitates supplier development to improve site/supplier mission
safety and reliability.  These processes and tools such as the MAP, PMAP, and its
audit program supports MDA’s goal of ensuring mission success.


Air Force – Space and Missile System Center
Background
The Space and Missile Systems Center (SMC), located at Los Angeles Air Force
Base in El Segundo, CA, is a subordinate unit of the Air Force Space Command
at Peterson Air Force Base, CO. It is the center of excellence for acquisition of
military space systems. SMC conducts research, development, procurement,
deployment    and   sustainment    of   various     space   systems.    It   supports   this
mission with an average budget of $8.66 billion as calculated from FY2009
through FY2013.




                                                                                           DODIG-2014-116│ 19
Appendixes



                 SMC equips U.S. and allied forces with satellites, command and control systems,
                 and launch systems in support of global military operations. SMC programs focus
                 on space force enhancements including communications, navigation, tracking
                 satellites, space support to include launch systems, satellite control networks,
                 and force application. SMC develops, acquires, fields and sustains systems in four
                 major mission areas. These areas are:

                         •	 Space superiority, which includes programs such as Space Based
                            Surveillance constellations of satellites and the Space Fence;

                         •	 Space support, which includes launch systems, range support, and
                            satellite networks;

                         •	 Space force enhancement, which includes programs such as Military
                            Satellite Communications Systems, Global Positioning Systems, Space
                            Based Infrared Systems, and nuclear detection; and

                         •	 Force application, which supports conventional missiles and prompt
                            global strike.

                 SMC Mission Assurance Approach
                 SMC approach to mission assurance is through the development and use of
                 technical specifications and standards as an element of acquisition practices and
                 the use of independent assessments and technical reviews of programs. SMC
                 developed its approach to mission assurance after a string of launch failures,
                 which were attributed to relaxed requirements because of acquisition reform,
                 which occurred in the late 1980s and early 1990s. SMC implemented several
                 initiatives to improve the probability of mission success through their back‑to‑basics
                 approach implemented in the 2000s. The approach focused first on launch process
                 revitalization then expanded into a larger systems engineering revitalization
                 campaign across the organization.  This back‑to‑basics approach focused on
                 processes and procedures to bring back key specifications and standards. This
                 involved industry partnerships and collaboration with other civil agencies to share
                 lessons learned and best practices across the space community. These processes
                 included using the MAG and space flight worthiness criteria, which provided a
                 standard to assess safety, suitability, reliability, quality, and effectiveness.  They
                 use an Independent Readiness Review Team  (IRRT), which conducts independent
                 assessments of the program. The IRRT reviews artifacts such as pedigree data and




20 │ DODIG-2014-116
                                                                                      Appendixes



test results to independently identify risk using mission focus areas and expert
judgment. It also provides risk assessment and recommendation at key readiness
milestones such as space and launch vehicle ship readiness, and launch readiness.
This back-to-basics approach brought back many of the principles of mission,
product and quality assurance lost during acquisition reform allowing SMC to
improve its overall mission success. Overall, the SMC mission assurance process
ensures safety, suitability, reliability, quality, and effectiveness of the program
and system.


Observation 1
SMC uses an independent engineering directorate within its organizational
structure to ensure mission assurance is incorporated into programs early in
the acquisition lifecycle while continuously providing systems engineering support
to SMC programs throughout the lifecycle. This independence from the program
offices ensures that quality and mission assurance practices are not inadvertently
compromised in the pursuit of cost and schedule efficiencies.

The SMC Chief Engineer is responsible for ensuring center-wide application,
implementation and adherence to all policies and best practices. The Chief Engineer
does this through the SMC Engineering Directorate (SMC/EN). SMC/EN provides
independent assessment and analysis of programs in support of the Program
Executive Office (PEO) for Space. It also provides technical assistance to program
offices through their engineering Cadre team program.  The Cadre team consists
of Government and contractor subject matter experts (SME) in the systems
engineering directorate that provide daily technical assistance to program offices.
The team interacts directly with the engineers and program managers to provide
technical advisory services in addition to provide independent assessments
to programs. Its ultimate goal is to prevent the reduction of mission, quality, and
product assurance by the program manager in the pursuit of cost and schedule.
Similarly, the Engineering Directorate team conducts independent reviews on the
program, and provides recommendation to the program, manager and to the PEO
for Space. The team reviews and approves contract requirements, acceptance of
all decision and launch readiness reviews, and assesses program offices to ensure
readiness to enter operational testing.




                                                                                  DODIG-2014-116│ 21
Appendixes



                 Observation 2
                 SMC uses a set of 69 standards and policies to attain and ensure mission success,
                 which every SMC program manager must consider and apply to their programs.
                 These baseline standards and policies includes at a minimum mission assurance,
                 quality and safety principles and processes; and assurance disciplines providing the
                 program manager a stable starting point to ensure mission success. Additionally,
                 they provide a baseline for analysis and assessments of the program and the
                 contractor’s technical performance.

                 Of the 69 standards, two standards that stand are SMC-S-001, “Systems
                 Engineering   Requirements       and       Products,”     and    SMC-S-019,     “Program    and
                 Subcontractor Management.” They help the program manager ensure that the
                 proper engineering and assurance standards and processes are included on the
                 program and in contracts. SMC-S-001, defines the Government’s requirement for
                 a disciplined systems engineering approach to systems engineering. It specifies
                 the government’s requirements for executable contractor systems engineering
                 efforts and can be used as a guide by the tasking activity to assist in systems
                 engineering   planning    and     management.            While   SMC-S-019    establishes   the
                 requirements for the program and subcontractor management program to ensure
                 that all process, roles, responsibilities, and resources affecting the control of the
                 program are defined.

                 SMC/EN highly recommends that mission assurance standards, policies and
                 principles be placed in the initial request for a proposal and awarded contract. Any
                 deviation from standards, policies and principles must be formally approved by
                 SMC/EN and must meet the intent of the standards.  This ensures that mission
                 assurance best practices are applied to weapon systems acquisition throughout
                 the lifecycle of the program.  The MAG principles are then flowed down to the
                 subcontractors and suppliers through the prime contract.  SMC/EN ensures
                 the contractor is meeting the proper standards and policies through technical
                 reviews and audits such as the System Requirement Review, System Functional
                 Review,   Preliminary    and    Critical    Design      Reviews,   Functional    and   Physical
                 Configuration Audits, and independent readiness reviews.  They also have in‑plant
                 representatives where necessary to ensure adherence standards and requirements.
                 Similarly, SMC contracts ensure proper systems engineering rigor and disciplines
                 are reflected in the acquisition strategy, request for proposal, and contract.




22 │ DODIG-2014-116
                                                                                          Appendixes



Conclusion
SMC mission assurance process assesses and ensures safety, suitability, reliability,
quality, and effectiveness of the program and system.  SMC does this through
SMC/EN, which provides independent engineering support to the chief engineer
and program managers through the issuance of baseline standards, policies and
requirements, and technical assessments and program reviews.  SMC mission
assurance approach ensures the proper standards, polices, and requirements are
on contract at the start of the program and throughout the lifecycle. Furthermore,
they institute several technical reviews and audits within their processes to
ensure systems have met requirements before proceeding to the next phase
or milestone.


Navy – Strategic Systems Programs
Background
The Strategic Systems Program (SSP) is responsible for the Trident strategic
weapon system. SSP has a 50-year history of providing credible sea-based
deterrent missile systems and numerous successful flight tests. It is the Department
of the Navy organization that directs the end-to-end effort of the Navy’s nuclear
deterrent Strategic Weapon System to include system acquisition, training,
equipment sustainment, and facilities; and fulfill the terms of the U.S. and UK
Polaris Sales Agreement. SSP is responsible for every aspect of the Strategic
Weapons System (SWS) from concept, design and development, production,
deployment, protection, and operational support; through system retirement and
disposal.  They have an average budget of $2.57 billion as calculated from FY2009
through FY2013.

SSP is a vertical hierarchy organization with clear lines of responsibility, authority,
and accountability and is aligned to the SWS subsystems. The organizational chart
in Figure B-4 shows the overarching SSP structure. The SSP Director has overall
accountability and three division level direct report offices.  These division level
direct reports are:

         •	 Nuclear Weapons Safety and Security Division (SP30), responsible
           for coordinating policies associated with the safety and security of
           nuclear weapons;




                                                                                      DODIG-2014-116│ 23
Appendixes



                          •	 Technical Division (SP20), accountable for the technical aspects of
                             the weapon system including design, production, maintenance and
                             operations; and

                          •	 Plans and Programs Division (SP10), which provides supporting program
                             planning functions and manages resources and support services.

                 Figure B-4. SSP Organizational Structure




                 Source: Strategic Systems Programs




24 │ DODIG-2014-116
                                                                                         Appendixes



The Technical Division is responsible for mission assurance and is organized
into branches aligned with SWS subsystems (Figure B-5).

Figure B-5. Technical Division (SP20) Organization Chart




Source: Strategic Systems Programs


The Technical Division sets policies, flows down requirements, guides technical
management, and provides oversight to ensure product assurance, quality assurance,
and SSP success.  The Chief Engineer and his staff ensure technical disciplines,
such as quality, reliability, maintainability, and product assurance are included
within program management activities conducted at headquarters, field activities,
contractor locations and other support activities. They also support and ensure
technical communication is occurring between the branches and divisions of SSP.
SSP executes the principles of mission assurance through its technical management
and oversight processes by using proven engineering principles, risk management
techniques, and independent assessments throughout the programs lifecycle.


Observation 1
SSP has three main documents that identify the standards, requirements, and
engineering principles that are applied to each acquisition, contract, and program.
This ensures each acquisition, contract, and program starts with the same baseline
standards and meets a minimum level of quality and product assurance criteria.
The three main documents are as follows.

         •	 Technical Objectives Guide (TOG), which is the top-level specification. It
            guides development; identifies systems engineering requirements; and
            specifies performance, reliability and maintainability requirements for
            operations, sustainment, and overall test methodology.




                                                                                     DODIG-2014-116│ 25
Appendixes



                           •	 Strategic Systems Program Organization Manual (SORM), which sets the
                                organizational structures, relationships, and functions of the SSP. The
                                SORM identifies key offices for technical direction, policies, requirement
                                flow down, technical and program oversight, manufacturing, testing,
                                and independent assessment.

                           •	 Technical Program Management Requirements for Strategic Systems
                                Programs Acquisitions Document (T9001B), which is the baseline
                                contract document for quality and product assurance and specifies
                                the management actions and technical disciplines to be invoked on
                                SSP contracts.

                 These three documents are supported by additional internal standards and
                 policies to facilitate implementation, process flow, and overall best practices. SSP
                 identified 43 documents that address technical management, oversight, assessment,
                 reporting, issue resolution, configuration control, interface management, and
                 testing. The technical branches are responsible for executing their programs
                 in accordance with these documents and are assessed against them by the
                 SSP Chief Engineer and his staff. Finally, these documents guide and help the
                 SSP chief engineer ensure mission success of SSP programs through product and
                 quality assurance and risk management principles.

                 The T9001B lays out application of proven scientific, engineering, quality,
                 and program management principles towards the goal of achieving mission
                 success. It covers all phases of life cycle support, beginning with development
                 and extending through production, operational support and eventual disposal.
                 T9001B is a compendium of quality, product, safety, and guidelines that program
                 managers use to define specific contract CDRLs.  It calls out specific design,
                 reliability,    availability,   and   maintainability   requirements,   the   test   program
                 approach, configuration management program, supplier management process, and
                 production standards to be included on the contract. Program managers can
                 tailor T9001B based on specific components, lifecycle phase, and contract type.
                 The SSP Chief Engineer Office (in particular the Engineering Manager Section) is
                 required to review and concur with the tailoring. This ensures a disciplined
                 approach and application of proven scientific, engineering, and quality principles
                 to ensure mission success.




26 │ DODIG-2014-116
                                                                                           Appendixes



The SSP SORM specifies the functions of the SSP organization and the processes
and products for which the organization is responsible.   The organizational
functions, in particular, those of the SSP Technical Division, require the application
of proven scientific, engineering, quality, and program management principles.
Three examples are the assigned functions of the Engineering Manager Section,
Evaluations and Assessments Section, and Missile Branch.  The Engineering
Manager Section develops policy and program guidance for Technical Program
Management (TPM), Product Assurance, and Quality systems for the SWS during
all phases of the SWS life cycle at contractor facilities, Government shore facilities,
and in the operational Naval Fleet.  The Evaluation and Assessment Section
provides SSP technical program management, evaluations, audits, and management
reviews. The Missile Branch executes planning, budgeting, directing, and technical
management of programs to research, design, develop, test, qualify, and install
the missile system, and related support equipment.

In summary, the three main documents guide SSP system acquisition and program
execution. These internal policies, procedures, and standards are applied to system
acquisition to specify system and technical requirements that drive quality and
product assurance. The documents direct responsibility, management, and technical
performance of the SSP organization to guide technical program management
and engineering.


Observation 2
Evaluation   and   reviews   are   conducted    on   SSP    prime   contractors,   major
subcontractors, and SSP Government Field Activities and Program Management
Offices.  SSP employs and incorporates several types of independent technical
and quality reviews, and evaluations into their processes.  These reviews help
ensure that policies, standards, and contract requirements are being implemented,
which results in a higher probability of mission success.

There are five primary independent technical and quality reviews and evaluations
that ensure program success: Technical Program Management Evaluation (TPME),
Management Review (MR), Facility Technical Proficiency Evaluation (FTPE),
Demonstration and Shakedown Operation (DASO), and Strategic Systems Program
Alteration (SPALT) Program.  The teams that execute TPMEs, MRs, FTPEs, and
DASOs are independent of the unit under review or evaluation. The SPALT program
initiates with a pre-proposal for change or alteration to a SWS or AWS, which if
approved by the responsible SSP field office is submitted as a proposal for review
and evaluation by Naval activities and approval by the SSP Technical Director.



                                                                                       DODIG-2014-116│ 27
Appendixes



                 TPMEs assess contract compliance and are typically performed every 3 years.
                 The TPME evaluates the onsite Program Management Office and associated
                 contractor performance to ensure it is meeting contract requirements by reviewing
                 the technical specifications and manufacturing processes against the statement of
                 work and the tailored T9001B.  An external group, called the Evaluation and
                 Assessment Team, made up of product assurance subject matter experts from
                 NSWC Corona performs the TPMEs. TPMEs take a week to complete. The Chief
                 Engineer then uses the information from the TPME to identify underlying issues
                 of the non-compliance with requirements and subsequent root cause analysis and
                 corrective action determination are conducted for each issue.

                 MRs are scheduled every 3 years to evaluate the Government’s performance and
                 implementation of programmatic and technical functions responsibilities.  The
                 MR ensures effective onsite monitoring and technical management of contractors
                 by the respective SSP Program Management Offices.  Management reviews are
                 conducted on Flight and Shipboard Systems Program Management Offices (PMOs).
                 The SSP Evaluation and Assessment Section chairs the evaluations with support
                 from NSWC, Corona and SSP Technical Branch(es).

                 The FTPE, performed every 3 years, is an objective evaluation of facility
                 performance    to   assure    proper     accomplishment    of   the    SSP      mission.    SSP
                 Headquarters, with support from SSP PMOs, NSWC Corona, other SSP field
                 activities, and contractors conduct FTPEs every 3 years of Strategic Weapons
                 Facility Atlantic, Strategic Weapons Facility Pacific, and the Naval Ordnance Test
                 Unit. The FTPE evaluates both the Government and contractor components
                 to properly assess operational performance and systems, the potential for
                 performance problems, requirements adequacy and validity, and the need for
                 continuous improvement in requirements, systems, and procedures.

                 DASOs provide assurance that ships are ready to carry out their primary mission.
                 The purpose of DASO is to certify weapon system, crew, documentation, and
                 logistical support for strategic deployment after new construction or overhaul.
                 The DASO demonstrates successful firing of a Trident II D5 Missile and validates
                 from   end‑to‑end   that     the   SWS    meets   all   deterrent     mission    performance
                 requirements. The SSP Operations, Evaluation, and Training Branch is the lead
                 for planning, coordination, technical direction, analysis, execution, and conduct of
                 the DASO Program.




28 │ DODIG-2014-116
                                                                                      Appendixes



SSP uses the SPALT Program for configuration control and configuration status
accounting for SWS and Attack Weapon System (AWS) Hardware Configuration
Items and Computer Software Configuration Items.  The SPALT program lays out
SSP’s process for proposal, evaluation, approval, implementation, and configuration
management of changes to hardware configuration items and Computer Software
Configuration Items that are part of the SWS and AWS.  The SPALT program
ensures that changes to the SWS are needed and provide a positive advantage to
the overall system program considering total impact on cost, personnel, safety,
and system effectiveness.  The SPALT Program provides the policies, controls,
and procedures for configuration control and status accounting of SWS and AWS
hardware and software items.

Although internal policies, procedures, and standards specify system, quality, and
product assurance requirements, SSP uses independent assessments, reviews, and
evaluations to ensure compliance to requirements. The independent assessments,
reviews, and evaluations are applied to contractors and the SSP organization.
Independent assessments, reviews, and evaluations ensure that contractors meet
contract requirements; SSP facilities accomplish their assigned mission; SSP
PMOs provide effective oversight of contractors; ships are prepared to execute
their missions; and SSP executes configuration management of changes and
alterations to the SWS and AWS.


Conclusion
SSP executes the principles of mission assurance as an integral part of technical
program management. Its internal process, procedures, and policies ensure
adherence to technical management and systems engineering practices.  The
execution of independent assessments and certifications ensure compliance and
readiness are key factors SSP’s success. Internal policy, procedures, and standards
direct quality assurance, product assurance, and mission success throughout
the system, while operational exercises provide certification that ships are
mission ready.




                                                                                  DODIG-2014-116│ 29
Management Comments




                 Management Comments
                 Principal Deputy for the Assistant Secretary of Defense
                 for Research & Engineering




30 │ DODIG-2014-116
                                                  Management Comments



Principal Deputy for the Assistant Secretary of Defense
for Research & Engineering (cont’d)




                                                       DODIG-2014-116. │ 31
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                           AWS    Attack Weapon System
                          BMDS    Ballistic Missile Defense System
                           CDR    Critical Design Reviews
                           DAG    Defense Acquisition Guidebook
                       DASD(SE)   Deputy Assistant Secretary of Defense for Systems Engineering
                          DASO    Demonstration and Shakedown Operation
                            EEE   Electrical, Electronic, Electromechanical
                          ESOH    Safety and Occupational Health
                          FASA    Federal Acquisition Streamlining Act
                           FTPE   Facility Technical Proficiency Evaluation
                            HSI   Human Systems Integration
                           IUID   Item Unique Identification
                           IRRT   Independent Readiness Review Team
                          MAG     Mission Assurance Guide TOR-2007(8546)-6018
                          MAIP    Mission Assurance Implementation Plan
                          MAIS    Major Automated Information System
                           MAP    MDA Assurance Provissions
                          MDA     Missile Defense Agency
                         MDAPs    Major Defense Acquisition Programs
                       MDA/QS     Quality, Safety, and Mission Assurance
                          MARs    MDA Assurance Representatives
                            MR    Management Review
                      ODASD(SE)   Office of the Deputy Assistant Secretary of Defense for Systems Engineering
                           PDR    Preliminary Design Reviews
                           PEO    Program Executive Office
                         PMAG     PMP Advisory Group
                         PMAP     MDA Parts, Materials, and Processes Mission Assurance Plan
                          PMO     Program Management Offices
                           PMP    Parts, Materials, and Processes
                           QSA    Mission Assurance
                           QSH    Safety and Occupational Health
                            QSI   Assurance Integration
                           QSP    Parts, Materials, and Processes




32 │ DODIG-2014-116
                                                                                     Acronyms and Abbreviations




Acronyms and Abbreviations (cont’d)
      QSQ    BMDS Quality
      QSS    BMDS Safety
     SDIO    Strategic Defense Initiative Organization
       SEP   Systems Engineering Plan
      SMC    Space and Missile Systems Center
       SSP   Strategic Systems Program
      SME    Subject Matter Experts
   SMC/EN    Space and Missile Systems Center/Engineering Directorate
    SORM     Strategic Systems Program Organization Manual
     SPALT   Strategic Systems Program Alteration
      SRM    Supplier Road Maps
      SWS    Strategic Weapons System
             Technical Program Management Requirements for Strategic Systems Programs
   T9001B
             Acquisitions Document
      TOG    Technical Objectives Guide
      TPM    Technical Program Management
     TPME    Technical Program Management Evaluation
 USD(AT&L)   Under Secretary of Defense for Acquisition, Technology, and Logistics




                                                                                                DODIG-2014-116│ 33
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
